No. 20-XXX

In the Supreme Court of the United States
PEDRO HERNANDEZ,
Petitioners,
v.
THE PEOPLE OF THE STATE OF NEW YORK,
Respondent.

CERTIFICATE OF SERVICE

I, Guyon H. Knight, a member of the Bar of this Court, certify pursuant to this
Court’s order of March 19, 2020, that on this 21st day of January, 2021, I caused one
copy of this petition for certiorari to be served by electronic means on the following:
Vincent Rivellese
Manhattan District Attorney’s Office
rivellesev@dany.nyc.gov
I further certify that all parties required to be served have been served.
/s/Guyon H. Knight
Guyon H. Knight

z

